[I]

Cm

No.

21-5689
FILED
SFP 0 9 2021
L^JPREEMEFcn!

IN THE
SUPREME COURT OF THE UNITED STATES

3

HAROLD HOSKINS

— PETITIONER

(Your Name)
vs.
SUPERINTENDENT KAUFFMAN
SCI-HUNTINGDON
— RESPONDENT(S)
ON PETITION FOR A WRIT OF CERTIORARI TO
THIRD CIRCUIT COURT OF APPEALS

(NAME OF COURT THAT LAST RULED ON MERITS OF YOUR CASE)
PETITION FOR WRIT OF CERTIORARI

•HAROLD HOSKINS

# JZ-4866

(Your Name)
1100 PIKE STREET

(Address)
HUNTINGDON, PA. -16654-1112
(City, State, Zip Code)

(Phone Number)

[ii]

QUESTION(S) PRESENTED

WAS THE PETITIONER DENIED HIS SIXTH AMENDMENT RIGHT TO BE
REPRESENTED BY COUNSEL AS MEANT BY THE SIXTH AMENDMENT
AND
DID THE ACTIONS OF "ALL" COUNSEL INVOLVED DEPRIVE THE
PETITIONER OF HIS SIXTH AMENDMENTQrightD AND DUE PROCESS
OF LAW AS PER THE FIFTH AND FOURTEENTH AMENDMENTS ?
AS A RESULT OF THE INEFFECTIVENESS OF "ALL" COUNSEL WAS THE
PETITIONER DEPRIVED OF A FAIR TRIAL ?

[ iii ]

LIST OF PARTIES

[ ] All parties appear in the caption of the case on the cover page.
[x] All parties do not appear in the caption of the case on the cover page. A list of
all parties to the proceeding in the court whose judgment is the subject of this
petition is as follows:
THE RESPONDENTS ARE REPRESENTED BY:
DISTRICT ATTORNEY OFFICE OF LYCOMING COUNTY, PA.
DISTRICT ATTORNEY KENNETH A. OSOKOW, ESQ.
48 WEST THIRD STREET
WILLIAMSPORT, PA. 17701

[iv]

a

TABLE OF CONTENTS
OPINIONS BELOW

1

JURISDICTION

2

CONSTITUTIONAL AND STATUTORY PROVISIONS INVOLVED

3

STATEMENT OF THE CASE

4

REASONS FOR GRANTING THE WRIT

5

CONCLUSION

11

INDEX TO APPENDICES
APPENDIX A

THIRD CIRCUIT COURT OF APPEALS DECISION

APPENDIX B

DISTRICT COURT DECISION/OPINION/ORDER

APPENDIX C
APPENDIX D
APPENDIX E
APPENDIX F

:>

[ V]

TABLE OF AUTHORITIES CITED

PAGE NUMBER

CASES
STRICKLAND V. WASHINGTON, 104 S.CT. 2052 (.1984)

6

UNITED STATES V. GLINSEY, 209 F.3D 386 (5TH CIR. 2000)

6

STATUTES AND RULES

OTHER
FIFTH AMENDMENT

SIXTH AMENDMENT —FOURTEENTH AMENDMENT

IN THE
SUPREME COURT OF THE UNITED STATES
PETITION FOR WRIT OF CERTIORARI
Petitioner respectfully prays that a writ of certiorari issue to review the judgment below.
OPINIONS BELOW
[x] For cases from federal courts:
The opinion of the United States court of appeals appears at Appendix —A— to
the petition and is
; or,
[ ] reported at
[ ] has been designated for publication but is not yet reported; or,
[x] is unpublished.
B__to

The opinion of the United States district court appears at Appendix
the petition and is
or,
[ ] reported at
[ ] has been designated for publication but is not yet reported; or,
[x] is unpublished.
[ ] For cases from state courts:
The opinion of the highest state court to review the merits appears at
Appendix_____ to the petition and is
; or,
[ ] reported at
[ ] has been designated for publication but is not yet reported; or,
[ ] is unpublished.
The opinion of the _
appears at Appendix

court
to the petition and is

; or,
[ ] reported at
[ ] has been designated for publication but is not yet reported; or,
[ ] is unpublished.
1.

JURISDICTION
[X] For cases from federal courts:
The date on which the United States Court of Appeals decided my case
was JULY 14. 2021.
[x] No petition for rehearing was timely filed in my case.
[ ] A timely petition for rehearing was denied by the United States Court of
, and a copy of the
Appeals on the following date:-----------------order denying rehearing appears at Appendix
[ ] An extension of time to file the petition for a writ of certiorari was granted
:_(date) on----------------------------- (date)
to and including______
in Application No.__ A
The jurisdiction of this Court is invoked under 28 U. S. C. § 1254(1).

[ ] For cases from state courts:
The date on which the highest state court decided my case was
A copy of that decision appears at Appendix--------- [ ] A timely petition for rehearing was thereafter denied on the following date:
■____________________ and a copy of the order denying rehearing
appears at Appendix
[ ] An extension of time to file the petition for a writ of certiorari was granted
(date) in
(date) on
to and including____
Application No.__ A
The jurisdiction of this Court is invoked under 28 U. S. C. § 1257(a).

2.

:v
£■

CONSTITUTIONAL AND STATUTORY PROVISIONS INVOLVED

SIXTH AMENDMENT
FOURTEENTH AMENDMENT
FIFTH AMENDMENT (DUE PROCESS)

3

STATEMENT OF THE CASE

BThis case is of national importanceO

EVERY SINGLE DAY THROUGHOUT THIS NATION FROM COAST TO COAST THE
PROBLEM THAT THIS PETITIONER FACED AND WHICH DID RESULT.IN BEING
DENIED A FAIR TRIAL, TAKES PLACE.
TRIAL COUNSEL WAS NOT JUST INEFFECTIVE BUT WAS PITIFUL AND IF
THIS WAS NOT SO SERIOUS A CASE (it is) THE ACTIONS BY COUNSEL AT
TRIAL COULD BE MADE INTO A COMEDY. A GUN WAS INVOLVED. NO ONE WAS
INJURED, NO ONE WAS SHOT AT.
THE STATE FIREARM EXPERT TESTIFIED THAT HE TEST FIRED THE WEAPON
PROVIDED TO HIM, AS THE WEAPON UTILIZED DURING THE ALLEGED CRIME.
THE PROBLEM WAS THIS. THE EXPERT BASED ALL OF HIS FINDINGS ON THE
TESTING AND THE EXAMINATION OF A .32 CALIBER HANDGUN.(EMPHASIS).
THE WEAPON THAT WAS THE SAID WEAPON AT THE SCENE WAS A .38 CAL.
HANDGUN.

OEMPHASISO

THIS IS EXPLAINED IN THE REASONS FOR GRANTING THE WRIT.
POST CONVICTION COUNSEL BECAME INVOLVED AND HE WAIVED "ALL"
OF THE INEFFECTIVE ASSISTANCE OF COUNSEL CLAIMS, RAISED BY THE
PRO-SE PCRA PETITION. IN FACT. POST CONVICTION COUNSEL WAIVED
EVERY SINGLE CLAIM CONCERNING THE MERITS, RESULTING IN A PROCEDURE
DEFAULT SITUATION —EFFECTIVELY LOCKING PETITIONER OUT OF COURT.
ALL OF THE COUNSEL0TRIAL AND POST CONVICTIONflWERE PITIFUL.

4.

r

Cm

REASONS FOR GRANTING THE PETITION
!

REASONS

FOR

GRANTING

THE

WRIT

KBBHWWWfflWESMMMflRRRIRRMMWMMMMMMMMMOOMMflWKWWBiiOOMMMMMWwwwwWwwMWW

THE INEFFECTIVE ASSISTANCE OF COUNSEL:
TRIAL COUNSEL WAS INEFFECTIVE DURING TRIAL STAGES:
POST CONVICTION COUNSEL WAS INEFFECTIVE AND IN A PITIFUL ACTION
WAIVED EVERY SINGLE ISSUE CHALLENGING THE MERITS OF THE CASE
RESULTING IN PETITIONER SUFFERING A PROCEDURAL DEFAULT:

THIS IS AN OUTRAGEOUS CASE THAT DEMONSTRATES HOW AN ATTORNEY CAN
DESTROY THE PETITIONER'S OPPORTUNITY TO HAVE THE MERITS OF HIS CLAIMS
ADDRESSED, BECAUSE COUNSEL'S ACTIONS CAUSED A PROCEDURAL DEFAULT.
IN PETITIONERS 43 PAGE HABEAS CORPUS PETITION, PLUS ATTACHMENTS,
THE PETITIONER SET FORTH THE REASONS HIS PUBLIC DEFENDER, ATTORNEY
PETCAVAGE, WAS INEFFECTIVE.

(THE HABEAS IS PART OF THE RECORD IN

THIS INSTANT CASE); U.S. DISTRICT COURT, M.D. OF PA. CIV. NO. 3-1801701; SCRANTON, PENNSYLVANIA).
AT TRIAL THE PUBLIC DEFENDER DID NOT PRESENT A FIREARMS EXPERT
OR BALLISTICS EXPERT, EVEN THOUGH THE COMMONWEALTH DID.
THE FIREARMS EXPERT FOR THE COMMONWEALTH TESTIFIED THAT THE GUN
HE TEST FIRED WAS A .32 CALIBER HANDGUN AND THAT HE TEST FIRED .32
CALIBER BULLETS FROM THAT HANDGUN.
AT TRIAL THE COMMONWEALTH STAR, EYE WITNESS,

[BOWER] TESTIFIED

THAT THE PETITIONER TOOK A BULLET FROM THE .38 CALIBER HANDGUN.'. ♦
SEE N.T. 2/02/07----- >ALSO SEE PAGE 1 AND 2 OF THE PA. SUPERIOR COURT

5.

■*

COURT OPINION APPEAL CASE #1643 MPA 2016 (OPINION FILED ON 11-21-17).
IT STATES THAT "BOWER” (STAR EYE WITNESS FOR THE D.A.)QtestifiedQ
THAT PETITIONER TOOK A BULLET FROM THE .38. CALIBER REVOLVER...
THE FIREARMS EXPERT SAID HE TESTED AND FIRED A .32 CALIBER HAND­
GUN, THAT HE THOUGHT WAS PART OF THIS INSTANT CASE.
THE ACTUAL HANDGUN IN QUESTION WAS A .38 CALIBER HANDGUN BUT THE
RESULTS REPORTED BY THE STATE FIREARMS EXPERT WERE ALL BASED ON THE
.32 CALIBER HANDGUN THAT THE EXPERT TESTED.
TRIAL COUNSEL DID NOT HAVE AN EXPERT TO COUNTER THE STATE EXPERT
FINDINGS EVEN THOUGH THEY WERE COMPLETELY INCORRECT. TRIAL COUNSEL
SIMPLY LET ALL OF THIS SLIDE BY, UNCONTESTED.
COUNSEL NEVER OBJECTED NOR DID HE PRESERVE ANY OF THIS CLAIM
FOR APPEAL. STRICKLAND V. WASHINGTON, 104 S.CT. 2052 (1984); U.S. V.
GLINSEY, 209 F.3D 386 (5TH CIR. 2000),

THE STRICKLAND STANDARD

FOR EVALUATING COUNSEL'S PERFORMANCE SHOWS THAT COUNSEL (HERE) WAS
INEFFECTIVE. QS I X T H

THE

AME.NDMENTO

POST

CONVICTION

LAWYER
THIS

WAIVED
CLAIM

[THE INEFFECTIVE ASSISTANCE OF TRIAL COUNSEL]

TRIAL COUNSEL WAS PITIFUL AND FAILED TO CALL WITNESSES ON BEHALF .
OF THE DEFENDANT, THAT COULD HAVE HELPED.BOLSTER THE DEFENSE.
6.

TRIAL‘COUNSEL FAILED TO INTERVIEW POTENTIAL WITNESSES AND FAILED
TO SEEK THE ADVICE OF EXPERT FIREARMS EXPERTS REGARDING THE HANDGUN
THAT WAS SAID TO BE THE WEAPON UTILIZED IN THIS CRIME. NO ONE WAS
SHOT OR WOUNDED.
PETITIONER (NONE).

NO HANDGUN OR ANY WEAPON WAS EVER FOUND ON THE
THE HANDGUN TURNED OVER—TO THE POLICE—BY

A THIRD PARTY AND SAID TO BE THE HANDGUN USED BY PETITIONER, DID
NOT HAVE PETITIONER'S FINGERPRINTS ON THE HANDGUN.QEMPHASISQ
NO PHYSICAL EVIDENCE LINKED PETITIONER TO THE OFFENSE CHARGED.
IN SPITE OF THIS EXCEPTIONALLY WEAK CASE AGAINST PETITIONER, THE
TRIAL COUNSEL FAILED TO CONDUCT ANY SENSIBLE INVESTIGATION IN REGARD
TO PRESENTING A VIABLE DEFENSE FOR THE DEFENDANT, WHO IS ACTUALLY
INNOCENT OF THE TWO COUNTS OF ATTEMPTED HOMICIDE, ROBBERY, TERRORISTIC
THREATS' FIREARMS VIOLATIONS, AND POSSESSION OF A CONTROLLED ILLEGAL
SUBSTANCE. THE TWO COUNTS OF CRIMINAL ATTEMPTED HOMICIDE, ARE BOTH
ANCHORED BY THE COMMONWEALTH ON THE FIREARMS EXPERT TESTIMONY, THAT
THE PROSECUTOR PRESENTED AT TRIAL.
TRIAL COUNSEL HAD MADE NO EFFORT TO OBTAIN A FIREARMS EXPERT FOR
THE DEFENDANT, TO CHALLENGE THE INACCURATE TESTIMONY ADVANCED BY THE
COMMONWEALTH EXPERT. THE DEFENSE ABSOLUTELY NEEDED SUCH AN EXPERT.
NONETHELESS TRIAL COUNSEL FAILED TO EVEN ATTEMPT TO CONTACT ANY.
FIREARMS EXPERT FOR THE DEFENSE, EVEN THOUGH ONE WAS NEEDED, TO SHOW
THE JURY THAT THE STATE EXPERT WITNESS WAS NOT ACCURATE AT ALL.

7.

POST CONVICTION COUNSEL WAIVED THIS CLAIM
AND ALL CLAIMS CONCERNING THE MERITS OF
*CLAIMS RAISED PRO SE IN THE PCRA
FILED INITIALLY BY THE PETITIONER

THE PETITIONER IN AN ATTEMPT TO SHOW THAT HE WAS WRONGFULLY
CONVICTED, WITH THE HELP OF FAMILY MEMBERS, HIRED A PRIVATE LAWYER
FROM PHILADELPHIA, PENNSYLVANIA, TO ASSIST HIM IN LITIGATING THE
POST CONVICTION RELIEF ACT PETITION THAT WAS DENIED ON JUNE 6, 2014.
THE PRO SE PCRA SET FORTH THE FACTS NECESSARY FOR COUNSEL TO BE THEN
APPOINTED BY THE COURT.
AFTER THE PRO SE PCRA WAS FILED BY PETITIONER, THE COURT APPOINTED
s

*

ATTORNEY LYNCH, WHO FILED A TURNER/FINLEY LETTER AND A MOTION TO
WITHDRAW. SOMETIME LATER, ON JANUARY 13, 2014, ATTORNEY LYNCH [AGAIN]
FILED A MOTION TO WITHDRAW.
THE PCRA COURT FILED A 907 NOTICE OF INTENT TO DISMISS ON 4/7/14.
PETITIONER FILED AN OBJECTION TO THE MOTION TO DISMISS THE PCRA.
ON JUNE 6

2014 THE PCRA COURT DISMISSED THE PCRA PETITION.

THE PETITIONER FILED A TIMELY NOTICE OF APPEAL.
THE PCRA COURT ORDERED A CONCISE STATEMENT OF MATTERS COMPLAINED
OF ON APPEAL AND THE PETITIONER DID COMPLY BY FILING THE CONCISE
STATEMENT ON JULY 17, 2014, ON NOVEMBER 17, 2016[.adopted its 3-21-14]
ORDER

AS ITS 1925(b) OPINION.

PRIVATE COUNSEL ENTERS HIS APPEARANCE:
THE PHILADELPHIA LAWYER RETAINED BY THE PETITIONER’S FAMILY WAS
8.

ATTORNEY JEROME BROWN.

ATTORNEY BROWN ENTERED HIS APPEARANCE ON

MARCH 2, 2017. ATTORNEY BROWN ASKED FOR AN EXTENSION TO FILE AN
APPEAL BRIEF AND RECEIVED. THAT EXTENSION. THE SUPERIOR COURT OF
PENNSYLVANIA EXTENDED THE BRIEFING DATE TO APRIL 24, 2017.
HERE IS WHERE THE NIGHTMARE APPEARS

THE PETITIONER PRESERVED ISSUES OF MERIT IN THE QCONCISE STATEMENT
OF MATTERS COMPLAINED OF ON APPEALO AND THE OBJECTION TO THE 907
NOTICED

AND DISCUSSED WITH ATTORNEY BROWN THAT THESE CLAIMS

ARE TO BE PART OF THE APPEAL, SINCE THEY ARE ALL PRESERVED AND
RIPE FOR APPEAL.
EVEN TO THIS DAY, THE PETITIONER CANNOT REASON WHY ATTORNEY BROWN
FAILED TO FILE A BRIEF THAT ARGUED THE ISSUES/CLAIMS SET FORTH IN
THE CONCISE STATEMENT OF MATTERS COMPLAINED OF ON APPEAL—THAT IS
THE PROPER PROCEDURE IN PENNSYLVANIA STATE COURT SYSTEM INSTEAD HE
(ATTORNEY BROWN) FILED A MOTION FOR A REMAND. THE SUPERIOR COURT
GRANTED ATTORNEY BROWN TWO (2) EXTENSIONS.

ATTORNEY BROWN FILED

A BRIEF IN SUPPORT FOR A REMAND INSTEAD OF A BRIEF FOR THE APPEAL
OF THE CLAIMS "PRESERVED" IN THE CONCISE STATEMENT. THEREFORE "ALL"
PRESERVED CLAIMS—>WERE THEN WAIVED.
ATTORNEY BROWN'S REMAND MOTION AND BRIEF WERE DENIED AND.THE
PETITIONER WAS LEFT OUT IN THE COLD, WITH NOTHING.
ALL OF THE CLAIMS OF MERIT WAIVED BY ATTORNEY BROWN'S FOOLISH
MOTION FOR REMAND. THIS IS SIMPLY A HEARTBREAK AND OUTRAGEOUS..
9.

TODAY, BECAUSE OF ATTORNEY BROWN'S FOOLISH ACTIONS, THE SAID
PETITIONER HAS TO DEAL WITH A PROCEDURAL DEFAULT, WAIVER.
UNABLE TO RAISE THE INEFFECTIVENESS OF HIS TRIAL COUNSEL. AND
UNABLE TO RAISE THE ADDITIONAL CLAIMS OF MERIT BECAUSE OF THE
PROCEDURAL DEFAULT, WAIVER, — THE PETITIONER ASKS THAT THIS
DUE PROCESS VIOLATION, THIS SIXTH AMENDMENT VIOLATION, THIS FIFTH
AND FOURTEENTH AMENDMENT VIOLATION, BE ADDRESSED BY THIS OURT.
WHY IS THIS MATTER OF NATIONAL IMPORTANCE .?

THIS SITUATION, IS REPEATED EVERY DAY THROUGHOUT THE UNITED STATES
OF AMERICA, FROM IDAHO,. TO MAINE AND EVERYWHERE ELSE.

POOR DEFENDANTS

RELY,*TRUST, DEPEND ON THE POST CONVICTION LAWYERS TO PRESERVE AND
ARGUE,

THE INEFFECTIVENESS OF THEIR TRIAL COUNSEL. ONCE THE PCRA

COUNSEL TAKES OVER, IT SEEMS ROUTINE FOR THE PCRA COUNSEL TO AVOID
FILING I.A.C. CLAIMS AGAINST THEIR FELLOW MEMBERS OF THE SAME STATE
DEFENSE BAR ASSOCIATIONS THAT THE PCRA LAWYER IS ALSO A MEMBER OF.
THEREFORE PCRA COUNSEL WAIVES THIS AND OTHER CLAIMS, AND THE POOR
DEFENDANT/PETITIONER IS LEFT WITH A PROCEDURAL DEFAULT TO CONTEND
WITH.

THE BOTTOM LINE IS THIS: THE PETITIONER IS LOCKED OUT OF

COURT, CONCERNING LITIGATING THESE

CLAIMS.

ALL CAUSED BY THE

POST CONVICTION LAWYER'S ACTION. THIS COURT SHOULD ADDRESS THIS
PROBLEM AND PRESENT AN AVENUE FOR RELIEF THAT THE PETITIONER MAY
RELY UPON.
10.

r i

THIS ISSUE/CLAIM RAISED HERE DOES TAKE PLACE EVERY SINGLE DAY IN
COURTHOUSES COAST TO COAST. THE RESULT ? PETITIONERS FIND ALL OF
THEIR CLAIMS WAIVED BY POST CONVICTION COUNSEL, WHO DOES NOT WANT
TO LITIGATE I.A.C. CLAIMS AGAINST A FELLOW LAWYER. THIS PETITIONER
IN THIS INSTANT CASE IS NOW LOCKED OUT OF COURT BECAUSE OF THE VERY
SERIOUS PROCEDURE DEFAULT CAUSED BY HIS POST CONVICTION LAWYER.
THIS COURT IS RESPECTFULLY ASKED TO ADDRESS THIS PROBLEM AND
GRANT THE WRIT.

CONCLUSION

The petition for a writ of certiorari should be granted.

Respectfully submitted,
ArLxidj'srA

J/T-

&\Stf

HAROLD HOSKINS

#JZ-4866

Date: September 8. 2021

11.

